May 20, 2011

DAVID E. WILLIAMS, JR.
VICE PRESIDENT, NETWORK OPERATIONS MANAGEMENT

SUBJECT: Management Advisory Report – Assessment of Overall Plant
         Efficiency 2011 (Report Number NO-MA-11-004)

This report presents our assessment of the overall efficiency of the processing and
distribution network for fiscal year (FY) 2010 (Project Number 11XG022NO000). This
report responds to a request from the inspector general to review the overall efficiency
of the network and addresses operational risk. See Appendix A for additional
information about this review.

Last year we reported on efficiency levels and mail volume in processing and
distribution centers (P&DCs) and processing and distribution facilities (P&DFs) and
recommended the U.S. Postal Service reduce almost 16.2 million workhours by
FY 2012. The goal of the previous effort was to report on the Postal Service’s efforts to
“raise the bar” on productivity levels for those plants that were the least productive in the
network nationwide. We took a similar approach in this report and plan to conduct this
type of analysis annually.

The Postal Service has faced significant recent financial challenges. It concluded
FY 2010 with a net loss of $8.5 billion despite reducing total costs by $3 billion. Without
the expense of the Postal Service Retiree Health Benefits Fund and the increase to
workers’ compensation costs, the net loss would have been $505 million.

Conclusion

In our Management Advisory Report – Follow-Up on the Assessment of Overall Plant
Efficiency 20101 – we reported that the Postal Service made substantial progress by
reducing workhours in the network from the previous year. Plants that were the least
productive in FY 2009 reduced more than 13.3 million workhours (achieving 82.78
percent of the recommended workhour savings of 16.2 million workhours) and improved
productivity by more than 9.3 percent. Moreover, from Quarter 1 (Q1), FY 2010 to Q1,
FY 2011, the Postal Service maintained or improved service. See Appendix B for more
information.


1
    Report Number NO-MA-11-001, dated February 1, 2011.
Assessment of Overall Plant Efficiency 2011                                                           NO-MA-11-004



However, we found the Postal Service had not yet fully adjusted workhours in response
to declining mail volume because of poor economic conditions nor achieved all possible
efficiencies in mail processing operations.

We identified five major areas where the Postal Service could realize workhour savings:

    Overtime Hours
    Mail Handling
    Automated and Mechanized Equipment
    Allied Operations
    Manual Operations

The Postal Service could improve operational efficiency by reducing more than
14 million workhours by the end of FY 2013. This would allow the Postal Service to
achieve at least median productivity levels in the network and avoid costs of more than
$647.5 million based on workhour savings for 1 year. See Appendix C for a detailed
explanation of this cost avoidance.

Efficiency of Operations

Further opportunities exist for the Postal Service to reduce mail processing workhours
by improving efficiency. For example, if the 145 plants with below-median productivity in
FY 2010 achieved just the median productivity level for each respective plant group,2
the Postal Service could realize savings of more than 14 million workhours. See
Appendix B for our detailed analysis of this topic.

Plants that performed below the median productivity level also had significantly higher
processing costs. For example, processing costs at Group 1 plants with productivity
above the median were $92.73 per 1,000 mailpieces, compared with processing costs
at Group 1 plants with first-handling piece (FHP) productivity below the median, which
were $109.11 per 1,000 mailpieces. See Appendix B for a detailed explanation of this
cost.

Potential Sources of Workhour Reductions

We identified several potential sources for achieving the recommended workhour
reductions, which we explain below.

Reduction in Overtime

In FY 2010, overtime in the network increased by more than 43 percent compared to
FY 2009. In addition, plants with below-median FHP productivity levels used a higher
percentage of overtime workhours than those with above-median FHP productivity
levels. If plants below the median achieved the average overtime percentage of the

2
 We divided facilities that process mail into seven groups ranked according to mail volume outlined in the
Breakthrough Productivity Initiative (BPI). See Appendix A for more information.

                                                          2
Assessment of Overall Plant Efficiency 2011                                                       NO-MA-11-004



above-median plants, the Postal Service would realize savings of more than 1.5 million
workhours. See Appendix B for our detailed analysis of this topic.

Mail Handling

Excessive mail handling used more workhours than necessary to process mail volume
and lowered productivity. In general, plants with lower FHP productivity3 tended to sort
the mail more than plants with higher FHP productivity. For example:

    On average, large Group 1 plants that operated at above–median FHP productivity
    sorted each mailpiece 1.80 times from the moment it was received until it was
    dispatched from the facility.4 Group 1 plants with below-median FHP productivity on
    average sorted each mailpiece 1.91 times. If all Group 1 plants sorted mail at the
    1.80 ratio, the Postal Service would save more than 2.06 million workhours.

    Similarly, the Postal Service could save more than 3.74 million workhours if plants
    with below-median FHP productivity levels sorted mail at the average handling ratio
    of plants with above-median FHP productivity levels. See Appendix B for our
    detailed analysis of this topic.

Automated and Mechanized Equipment

Plants that operated at below-median FHP productivity levels generally had lower
productivity in automated and mechanized operations.5 If all plants with below-median
FHP productivity levels increased the number of mailpieces handled per hour by
operation to the average of the plants with above-median FHP productivity, the Postal
Service could save more than 2.4 million workhours in automated operations and more
than 600 thousand workhours in mechanized operations. In addition, plants with
below-median FHP productivity levels generally had lower throughput, higher jams per
10,000 pieces, and higher reject rates on delivery barcode sorters (DBCSs) and
automated flats sorting machine 100s (AFSMs), indicating that procedures for jogging
and culling mail may need improvement. See Appendix B for our detailed analysis of
this topic.

Manual Operations

Opportunities to improve efficiency in manual operations were twofold. First, plants with
below-median FHP productivity levels also had lower productivity in manual operations.
The Postal Service could save more than 3.6 million workhours if plants with below-
median FHP productivity levels increased the mailpieces handled per hour to the
average of the plants with above-median FHP productivity levels. Second, the Postal

3
  We calculated FHP productivity by dividing FHP volume by Function 1 workhours.
4
  We determined the handling ratio by comparing FHP volume to the number of times a mailpiece was handled from
receipt to dispatch. A high handling ratio may indicate increased delivery point sequencing and is not always an
operational weakness.
5
  These operations include automated letter operations and distribution of flat mail on automated and mechanized
equipment.

                                                        3
Assessment of Overall Plant Efficiency 2011                                                          NO-MA-11-004



Service did not take full advantage of automated and mechanized equipment and,
consequently, worked an excessive amount of mail manually. The Postal Service’s
manual sort target is no more than 2.5 percent of the total letter volume and 6 percent of
the total flat volume. The Postal Service could save nearly 1.2 million workhours by
using automation to sort letter and flat mail instead of manual sortation. See Appendix B
for our detailed analysis of this topic.

Allied Operations

Plants with below-median FHP productivity levels generally used a larger percentage of
workhours in allied operations6 (referred to as labor distribution code [LDC] 17) than
plants with above-median FHP productivity levels. Allied operations represented the
largest percentage (38 percent) of workhour usage in mail processing operations in FY
2010. By standardizing the percentage of hours used in allied operations across the
network, compared with total mail processing workhours used, the Postal Service could
save more than 3.8 million workhours. This represents the greatest opportunity to
improve efficiency and achieve workhour reductions. See Appendix B for our detailed
analysis of this topic.

The Postal Service could improve operational efficiency by reducing more than 14
million workhours. This would allow the Postal Service to achieve at least median FHP
productivity levels in the network and avoid costs of more than $647.5 million based on
workhour savings for 1 year. See Appendix C for a detailed explanation of this cost
avoidance.

The Postal Service reduced FY 2010 mail processing workhours by approximately
10.5 percent from FY 2009 levels. However, management had not evaluated
operational efficiency by assessing performance based on median FHP productivity for
each plant grouping.

We recommend the vice president, Network Operations Management:

1. Reduce 14,017,630 workhours by fiscal year 2013 with an associated economic
   impact of $647,586,823.

2. Periodically evaluate operating efficiency by assessing performance against the
   median FHP productivity level for each plant grouping.




6
 These operations are recorded in LDC 17 and include mail preparation, presort operations, traying, sleeving,
opening, pouching, and platform operations.

                                                         4
Assessment of Overall Plant Efficiency 2011                                NO-MA-11-004



Management’s Comments

Management agreed with the findings and recommendations. Management plans to
improve operational efficiency and reduce workhours in each of the five major areas
highlighted in the report. See Appendix D for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director
Network Processing, or me at 703-248-2100.




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Megan J. Brennan
    Frank Neri
    Corporate Audit and Response Management




                                              5
Assessment of Overall Plant Efficiency 2011                                                               NO-MA-11-004




                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Mail processing is an integrated group of activities7 required to sort and distribute mail
for dispatch and eventual delivery. Post Offices, stations, and branches send outgoing
mail to P&DCs and P&DFs for processing and dispatch for a designated service area.
P&DCs report directly to area offices on mail processing matters. They also provide
instructions on the preparation of collection mail, dispatch schedules, and sort plan
requirements to associate offices and mailers. The Postal Service has more than 300
facilities with mail processing operations.

We divided the facilities that process mail into seven groups ranked by mail volume
outlined in the BPI.8 Chart 1 shows the percentage of mail processing facilities in each
group.
                            Chart 1. Plant Grouping Based On
                           FY 2006 BPI Groupings (Workload)




                                              Group7              Group1
                                               16%                 12%

                                                                                 Group2
                                                                                  11%
                             Group6
                              16%
                                                                                       Group3
                                                                                        11%



                                       Group5
                                        17%                           Group4
                                                                       17%




7
  Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.
8
  The Postal Service established the BPI to drive costs out while creating continuous improvement capability. The BPI
uses comparative monitoring and performance ranking in operating units across the country. Higher performing units
are sometimes used as models to identify best practices. Standard procedures are based on best practices and
training is developed to share performance expectations. Targets are set to drive performance toward the highest
levels.


                                                            6
Assessment of Overall Plant Efficiency 2011                                                        NO-MA-11-004



Labor Distribution Codes

The Postal Service compiles workhour, labor use, and other financial reports for
management use by functional category or LDC.9 For example, LDC 11 records
workhours in automated letter operations, LDC 12 records workhours in distribution of
flat mail on automated and mechanized equipment, and LDC 14 records manual
sortation of letters and flats. The Postal Service uses LDC 17 to record hours by
employees involved in allied operations or mail processing operations other than
distribution.

The largest percentage of workhour usage in mail processing operations in FY 2010
was in LDC 17 and the largest amount of FHP volume in FY 2010 was in LDC 11.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the overall efficiency of the processing and distribution
network for FY 2010. This audit is a cooperative effort with the Postal Service.

To accomplish our objective, we identified trends in mail volume, workhours, overtime,
and productivity for each of the seven plant groups for FY 2010. We calculated the
median FHP per workhour for FY 2010, ranked the plants within each group, and used
the median FHP productivity to calculate workhour savings for plants falling below the
median level. We calculated workhour savings by raising the productivity level of the
plants below the FHP median level to the median FHP productivity level. We also
calculated overtime and handling ratios for each plant. We examined the costs of
manual letter and flat operations, evaluated staffing and complement, and evaluated
whether significant reductions could be made through attrition. We reviewed workhours,
volume, and productivity levels for LDCs 11, 12, and 14. We determined the ratio of
LDC 17 workhours to total workhours for FY 2010 for each of the seven plant groups.10

To conduct this review, we relied on computer-processed data maintained by postal
operational systems, which included the Management Operating Data System, the Web
Complement Information System, the Activity-Based Costing (ABC) System, and the
Enterprise Data Warehouse System. We did not test the validity of controls over these
systems; however, we verified the accuracy of the data by confirming our analysis and
results with managers and other data sources.




9
  Mail processing operations are in the Function 1 category.
10
  We did not include LDCs 10, 13, 15, and 18 in this review for the following reasons: LDC 10 was not assessed
because supervisory hours are based on a ratio of supervisors to employees and supervisory staff must be adjusted
as workhours are reduced; LDC 13 was not assessed because the majority of volume is recorded as Total Pieces
Handled or Not Added and because of a large array of equipment and methodology, a reasonable basis for
comparison could not be performed; LDC 15 does not represent a significant total of workhours; and LDC 18
represents a wide variety of functions that could not provide a reasonable basis for comparison.

                                                        7
Assessment of Overall Plant Efficiency 2011                                    NO-MA-11-004



We conducted this review from February through May 2011 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our conclusions with management on
April 19, 2011, and included their comments where appropriate.

PRIOR AUDIT COVERAGE

                                                Report       Final Report   Monetary
                 Report Title
                                                Number           Date        Impact

    Assessment of Overall Plant
                                              NO-MA-09-002    5/8/2009      $969,495,708
    Efficiency

    Assessment of Overall Plant
                                              NO-MA-10-001    6/11/2010     $743,961,610
    Efficiency 2010

    Follow-Up to Assessment of Overall
                                              NO-MA-11-001    2/1/2011         $0
    Plant Efficiency 2010


    Overtime Usage                            HR-AR-11-003    3/31/2011        $0



As shown in the above chart, we have conducted two overall efficiency reviews, one
follow-up review of mail processing operations, and one review of national overtime
usage. The efficiency reviews showed that management had not evaluated operational
efficiency by assessing performance against productivity targets and other plants and
adjusting staff and equipment resources in response to workload changes.
Consequently, more workhours than necessary were used to process the mail. These
reviews identified opportunities to improve efficiency and reduce more than 39 million
workhours that would produce more than $1.7 billion in savings over 10 years. In
response to our recommendations, management reduced workhours to better align with
budgeted workhours. The audit of overtime usage showed that total overtime increased
because management did not effectively plan for overtime usage. Management agreed
with the recommendations made in these reports.




                                                  8
Assessment of Overall Plant Efficiency 2011                                                               NO-MA-11-004



                                  APPENDIX B: DETAILED ANALYSIS

Significant Workhour Reductions and Service Improvements

From FYs 2009 to 2010, the Postal Service made significant reductions in workhours
and improvements to operational efficiency. For instance, from FYs 2009 to 2010,
management used more than 26 million fewer workhours in mail processing.11 Overall
mail processing productivity improved from an average 789 mailpieces per hour in
FY 2009 to an average 849 mailpieces per hour in FY 2010, representing a productivity
increase of more than 7.6 percent.

The Postal Service made these improvements and raised service scores in External
First-Class (EXFC) Measurement system service categories of overnight, 2-day, and
3-day service as shown in Table 1.

                                       Table 1. EXFC Service Scores

                           Fiscal Year         Overnight            2-Day           3-Day
                              2009               96.19              93.68           90.89
                              2010               96.37              93.74           91.61

Service scores in all EXFC categories were also improved from Q1, FY 2010 to
Q1, FY 2011 as shown in Table 2.

                                       Table 2. EXFC Service Scores

                       Fiscal Year         Quarter Overnight                2-Day         3-Day
                          2010               1       95.91                  92.48         89.12
                          2011               1       96.06                  92.58         89.24


Changing Economic Trends
The Postal Service concluded FY 2010 with a net loss of $8.5 billion despite
reducing total cost by $3 billion. Without the expense of the Postal Service Retiree
Health Benefits Fund and the increases to workers’ compensation costs, the net loss
would have been $505 million.

In addition, a portion of the Postal Service's revenue drop in FY 2010 was attributed to
continuing declines in total mail volume. In FY 2010, mail volume decreased about
6 billion pieces from the previous fiscal year to 171 billion pieces. This volume was 19.7

11
  These hours are recorded in a category referred to as Function 1, which includes hours worked in network
distribution centers, international service centers, logistic and distribution centers, priority hubs, and processing
distribution centers and facilities. There was a total 26.1 million workhour savings in Function 1 hours, 22.3 million of
which were attributable to all plants and 13.3 million attributable to plants with below-median FHP productivity.

                                                            9
Assessment of Overall Plant Efficiency 2011                                                           NO-MA-11-004



percent below the peak of 213 billion mailpieces delivered during FY 2006. Most of the
volume declines were in the First-Class Mail® category, which has the greatest per
piece contribution. The decrease in FCM is due to the continuous shift to electronic
alternatives.

At the time of our review, the Postal Service continues dealing with a deteriorating
financial condition as it ended Q1, FY 2011 with a loss of $329 million. Without the
expense of the Postal Service Retiree Health Benefits Fund and the increases to
workers’ compensation costs, the agency would have ended the quarter with a net
income of $226 million. Although FHP mail volume showed an increase of about
1.3 billion mailpieces from Q1, FY 2010 to Q1, FY 2011, the increase is attributed to
Standard Mail, which generates only one-third of the contribution by FCM.

Title 39, U.S.C. Part 1, Chapter 1 § 101, states that the Postal Service “. . . shall provide
prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states that “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal Accountability and Enhancement Act, P.L. 109-435, Title II, dated
December 20, 2006, highlights “. . .the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

Efficiency of Operations

Further opportunities exist for the Postal Service to reduce mail processing workhours
by improving efficiency. We compared FHP productivity among the seven plant
groupings12 and determined the median FHP productivity for each group. We
determined that if the 145 plants with below-median FHP productivity in FY 2010
achieved just the median FHP productivity level for each respective plant group,13 the
Postal Service could realize more than 14 million workhour savings and avoid costs of
more than $647.5 million14 in a single year. For example, if Group 1 plants with
below-median FHP productivity increased their productivity to the average of the
above-median plants (939 mailpieces per hour); the Postal Service could save almost 6
million workhours – 42.72 percent of the more than 14 million workhours. See Table 3.




12
   For this analysis, we used plant groupings based on FY 2006 BPI Groupings (Workload) (see Appendix A.) We
based savings on FHP mail volume and based productivity on median performers.
13
   We divided the facilities that process mail into seven groups ranked according to mail volume outlined in the BPI.
See Appendix A for more information.
14
   We based workhour reductions on FY 2010 usage and used the Level 06 fully loaded FY 2010 clerk rate of $45.47
per hour and the Level 05 fully loaded FY 2010 mailhandler rate of $47.42 per hour (see Appendix C).

                                                         10
Assessment of Overall Plant Efficiency 2011                                NO-MA-11-004



                           Table 3. Baseline Workhour Reductions

           Plant                Median FHP          Workhour       Percentage of
           Group                Productivity          Savings      Total Savings
             1                      939             5,988,398         42.72%
             2                     1,032             2,119,165         15.12
             3                     1,012             2,045,341         14.59
             4                     1,088             2,184,665         15.59
             5                     1,253              929,619           6.63
             6                     1,323              468,732           3.34
             7                     1,464              281,708           2.01
            Total                                   14,017,630       100.00%

The recommended savings of more than 14 million workhours represents a
14.48 percent decrease in the 96,828,634 workhours used by plants that operated
below the median FHP productivity level in FY 2010 and a 7.78 percent decrease in the
180,265,485 workhours used by all plants. See Table 4.

                           Table 4. Opportunity Hour Percentage
                         For Plants With Below-Median Productivity

         Plant       FY 2010 Function 1              Workhour
        Group         Workhour Usage                   Savings       Percentage
           1             37,522,077                   5,988,398        15.96%
           2             18,723,637                   2,119,165         11.32
           3             13,634,547                   2,045,341         15.00
           4             13,638,540                   2,184,665         16.02
           5             7,469,055                     929,619          12.45
           6             3,927,117                     468,732          11.94
           7             1,913,662                     281,708          14.72
         Total           96,828,634                  14,017,630        14.48%
    Total All Plants    180,265,485                                     7.78%


Cost per 1,000 Mailpieces

Using the Activity Based Costing system (ABC), we determined the costs per 1,000
mailpieces (FHP) for FY 2010. Costs were higher at plants with below-median FHP
productivity and, in some cases, were more than 54 percent higher at plants with lower
productivity. For example, costs at Group 1 plants with below-median FHP productivity
were $92.73 per 1,000 mailpieces, compared with $109.11 per 1,000 mailpieces at sites
with above-median FHP productivity. See Table 5.


                                               11
Assessment of Overall Plant Efficiency 2011                                         NO-MA-11-004



                                   Table 5. Cost Per 1,000 FHP

                     Above Median             Below Median                       Percentage
                     Cost Per 1,000           Cost Per 1,000         Cost           Cost
    Group                 FHP                      FHP            Difference     Difference
        1                 $92.73                 $109.11           -$16.38         -17.66%
        2                 $67.34                  $93.10           -$25.76          -38.25
        3                 $72.31                  $99.05           -$26.74          -36.98
        4                 $64.13                  $94.67           -$30.54          -47.61
        5                 $58.15                  $74.49           -$16.34          -28.10
        6                 $64.00                  $75.67           -$11.67          -18.24
        7                 $74.91                 $115.41           -$40.50          -54.07

Potential Sources of Workhour Reductions

As shown in Table 6, we identified several potential sources for improving efficiency and
achieve recommended workhour reductions. These potential sources total more than
17 million workhours, which represents 121.4 percent of the recommended savings, far
more than needed to achieve the savings identified.

                   Table 6. Potential Sources Of Workhour Reductions

                                               Potential  For Detailed Explanation
            Source Of Workhour
                                               Workhour      See The Following
                Reduction
                                               Savings    Sections in this Appendix
       Reduce Overtime                          1,545,145     “Overtime Usage”
       Reduce Handling Ratio                    3,742,634 “Excessive Mail Handling”
       Reduce Manual Sortation of                           “Excess Manual Letter
                                                  684,678
       Letters                                                      Mail”
       Reduce Manual Sortation of
                                                  516,673      “Excess Manual Flat Mail”
       Flats
       Improve Efficiency in LDC 11                             “Automated Letter Mail
                                                2,448,238
       Operations                                                    Processing”
                                                                  “Mechanized and
       Improve Efficiency in LDC 12
                                                  634,104        Automated Flat Mail
       Operations
                                                                     Processing”
       Improve Efficiency in LDC 14
                                                3,631,037        “Manual Operations”
       Operations
       Improve Efficiency in LDC 17
                                                3,821,685         “Allied Operations”
       Operations
                   Total                       17,024,194
        FHP Productivity Savings               14,017,630            Appendix C
               Percentage                           121.4


                                                 12
Assessment of Overall Plant Efficiency 2011                                       NO-MA-11-004




Human Resources

As of February 2010, 15,542 employees in plants with below-median productivity levels
were eligible to retire. This represents a potential annual workhour reduction of more
than 27 million workhours, far more than needed to achieve the savings identified. See
Tables 7 and 8.

                             Table 7. Potential Complement Reduction
                                   For Plants Below The Median

                                         Total                Percentage
                          Plant                   Retirement
                                       Function 1              of Total
                          Group                    Eligible
                                       Employees              Employees
                             1             21,404       6,661   31.12%
                             2             10,263       2,993    29.16
                             3              7,673       2,013    26.23
                             4              7,298       2,130    29.19
                             5              4,030         979    24.29
                             6              2,111         524    24.82
                             7                941         242    25.72
                           Total           53,720      15,542   28.93%


                               Table 8. Potential Workhour Reduction
                                  For Plants Below The Median15

                                        Total                        Percentage
                         Plant                         Retirement
                                     Function 1                       of Total
                         Group                          Eligible
                                     Employees                       Workhours
                            1         37,200,152        11,576,818     31.12%
                            2         17,837,094         5,201,834      29.16
                            3         13,335,674         3,498,594      26.23
                            4         12,683,924         3,701,940      29.19
                            5          7,004,140         1,701,502      24.29
                            6          3,668,918           910,712      24.82
                            7          1,635,458           420,596      25.72
                          Total       93,365,360        27,011,996     28.93%




15
     We based workhour savings on 1,738 workhours per year.

                                                       13
Assessment of Overall Plant Efficiency 2011                                                        NO-MA-11-004



Overtime Usage

Management increased overtime in the network by more than 43.7 percent compared to
FY 2009, and opportunities exist to reduce overtime. The Postal Service could stabilize
overtime usage and save more than 1.5 million workhours. When management does
not properly monitor and control overtime, the Postal Service incurs higher labor costs,
because these workhours are paid at a higher premium rate.

For example, Group 1 plants operating above median FHP productivity levels had an
average overtime percentage rate of 6.32 percent. If all Group 1 plants operated at this
overtime ratio, the Postal Service could save 265,389 workhours. Overall, the Postal
Service could save more than 1.5 million workhours if all plants with below-median FHP
productivity reduced their overtime percentages to the average of the plants with above-
median FHP productivity. See Table 9.

                                       Table 9. Overtime Savings

                                              Above-Median
                                              Productivity –
                                                Average                     Group
                           Plant                Overtime                   Workhour
                           Group               Percentage                  Savings

                             1                       6.32                   265,389
                             2                       6.02                   434,870
                             3                       6.72                   348,901
                             4                       6.95                   231,088
                             5                       6.79                   155,774
                             6                       7.57                    59,716
                             7                       7.39                    49,407
                            Total                                          1,545,145


Excessive Mail Handling

The Postal Service could reduce the number of times mail is handled and save more
than 3.7 million workhours. Excessive mail handling uses more workhours than
necessary to process mail volume, which means productivity is lower.16 In general,
plants with lower FHP productivity levels tended to sort the mail more often than plants
with high FHP productivity levels. For example, on average, Group 1 plants operating
above the median FHP productivity sorted a piece of mail 1.80 times from the moment it

16
   We calculated the handling ratio by comparing FHP volume to total piece handlings (TPH) volume. TPH measures
the number of handlings used to distribute each mailpiece from receipt to dispatch. As an example, if the handling
ratio is 1.5, the average mailpiece was handled 1.5 times from the moment it was received until it was dispatched
from the facility. Management uses this information to measure performance and efficiency. This ratio can vary
depending on mail flow and operating plans.

                                                        14
Assessment of Overall Plant Efficiency 2011                                  NO-MA-11-004



was received until it was dispatched from the facility. Group 1 plants with below-median
productivity, on average, sorted each mailpiece 1.91 times. If all Group 1 plants sorted
mail at the 1.80 ratio, the Postal Service could save more than 2.0 million workhours.
Further, the Postal Service could save more than 3.7 million workhours if plants with
below-median FHP productivity sorted mail at the average handling ratio of the plants
with above-median FHP productivity levels. See Table 10.

                               Table 10. Handling Ratio Savings

                                              Above-Median
                                              Productivity –     Group
                         Plant                  Average        Workhour
                         Group                Handling Ratio    Savings
                           1                      1.80         2,062,487
                           2                      1.93          260,986
                           3                      2.02          104,525
                           4                      1.89          625,279
                           5                      1.79          385,275
                           6                      1.79          225,094
                           7                      1.76           78,988
                         Total                                 3,742,634


Automated and Mechanized Equipment

Plants that operated below the median FHP productivity level generally had lower
productivity in automated and mechanized operations. If all plants with below-median
FHP productivity increased the pieces handled per hour to the average of the plants
with above-median FHP productivity, the Postal Service could save more than
2.4 million workhours in automated operations and more than 634,000 workhours in
mechanized operations. In addition, plants with below-median productivity generally had
lower throughput, higher jams per 10,000 mailpieces, and higher reject rates on the
DBCS machines and on the AFSM 100s, indicating that procedures for jogging and
culling the mail may need improvement.

Automated Letter Mail Processing – LDC 11

Plants that operate at below-median FHP productivity levels generally had lower
productivity in LDC 11. For example, Group 1 plants operating at above-median FHP
productivity had an average LDC 11 productivity of 3,915 mailpieces per hour. If all
Group 1 plants operated at this productivity level, the Postal Service could save more
than 1.0 million workhours. Further, the Postal Service could save more than 2.4 million
workhours if all plants with below-median FHP productivity levels increased the pieces
handled per hour in LDC 11 operations to the average of the plants with above-median
FHP productivity. See Table 11.

                                                   15
Assessment of Overall Plant Efficiency 2011                               NO-MA-11-004




                        Table 11. Automated Letter Mail Processing
                                      LDC 11 FY 2010

                                        Above-Median
                                        Productivity –       Group
                    Plant              Average LDC 11      Workhour
                    Group                Productivity       Savings
                      1                     3,915          1,052,790
                      2                     3,795           436,898
                      3                     3,411           113,181
                      4                     4,032           466,898
                      5                     4,730           188,171
                      6                     4,865           135,054
                      7                     5,251            55,246
                    Total                                  2,448,238


Mechanized and Automated Flat Mail Processing – LDC 12

Plants with below-median FHP productivity levels also had lower LDC 12 productivity on
average. For example, Group 1 plants operating at above-median FHP productivity had
an average LDC 12 productivity of 2,066 mailpieces per hour. If all Group 1 plants
operated at this productivity level, the Postal Service could save 164,700 workhours.
Further, the Postal Service could save 634,104 workhours if all plants with
below-median FHP productivity levels increased the mailpieces handled per hour in
LDC 12 operations to the average of the plants with above-median FHP productivity.
See Table 12.

               Table 12. Mechanized and Automated Flat Mail Processing
                                   LDC 12 FY 2010

                                          Above-Median
                                          Productivity –     Group
                        Plant
                                         Average LDC 12    Workhour
                        Group
                                           Productivity    Savings
                         1                    2,066         164,700
                         2                    1,679          92,945
                         3                    2,318         128,576
                         4                    1,877         114,750
                         5                    1,972          71,900
                         6                    1,549          53,982
                         7                    1,248          7,252
                        Total                               634,104

                                                16
Assessment of Overall Plant Efficiency 2011                                 NO-MA-11-004




Throughput, Jam Rates, and Reject Rates

The average throughput for the DBCS was lower in Group 1 plants with below-median
FHP productivity than in plants with above-median FHP productivity. In addition, the
DBCS and the AFSM 100 jam reject rates were higher in plants with below-median FHP
productivity levels. These trends indicate that management at these plants might not be
properly instructing employees on procedures for jogging and culling the mail. In
addition, equipment at these plants may not be properly or sufficiently maintained. See
Tables 13 and 14.

                               Table 13. Group 1 DBCS FY 2010

                                               Average      Jam    Reject
                        Group 1 Plants
                                              Throughput    Rate    Rate
                        Above-Median
                                                36,175      1.99   0.91%
                         Below-Median
                                                36,165     2.21    1.04%
                           Difference             11       -0.22   -0.13%


                             Table 14. Group 1 AFSM 100 FY 2010

                                               Average     Jam     Reject
                       Group 1 Plants
                                              Throughput   Rate     Rate
                        Above-Median
                                                15,290     23.25   3.31%
                        Below-Median
                                                14,852     26.82   3.63%
                          Difference             437       -3.57   -0.32%

Manual Operations

Opportunities to improve efficiency in manual operations were twofold:

    Plants with FHP productivity below the median also had lower productivity in manual
    operations.

    Management did not take full advantage of automated and mechanized equipment
    and, consequently, worked an excessive amount of mail manually.

Manual Operations – LDC 14

Plants with FHP productivity lower than the median also had lower productivity in


                                                  17
Assessment of Overall Plant Efficiency 2011                                 NO-MA-11-004



LDC 14. For example, Group 1 plants operating at above-median FHP productivity had
an average LDC 14 productivity of 440 mailpieces per hour. If all Group 1 plants
operated at the average of 440 mailpieces per hour, the Postal Service could save
almost 2.1 million workhours. Further, the Postal Service could save more than 3.6
million workhours if all plants with below-median FHP productivity levels increased the
mailpieces handled per hour in LDC 14 operations to the average of the plants with
above-median FHP productivity levels. See Table 15.

                                    Table 15. LDC 14 FY 2010

                                        Above-Median
                                        Productivity –           Group
                     Plant             Average LDC 14          Workhour
                     Group               Productivity           Savings
                       1                     440               2,073,201
                       2                     405                383,613
                       3                     428                358,002
                       4                     445                380,101
                       5                     529                219,354
                       6                     580                107,064
                       7                     741                109,701
                     Total                                     3,631,037


Excess Manual Letter Mail

Plants operating at below-median FHP productivity levels generally worked an
excessive amount of letter mail manually. The Postal Service’s manual sort target is no
more than 2.5 percent of the total letter volume. However, in FY 2010, plants with less
than median FHP productivity sorted an excess of more than 385 million letters
manually. The largest percentage (30.83) of excess manual letters was at Group 2
plants. The Postal Service could save 684,678 workhours by using automation rather
than manual methods to sort letter mail. See Table 16.




                                                18
Assessment of Overall Plant Efficiency 2011                                  NO-MA-11-004



                                Table 16. Excess Manual Letters

                                   Excess Letters
                                    Worked More
                                      than 2.5
                                                      Group   Percentage
                                     Percent of
                     Plant                           Workhour of Excess
                                    Total Letter
                     Group                           Savings    Letters
                                      Volume
                        1            24,541,567        43,591      6.37%
                        2           118,843,457       211,090      30.83
                        3            46,483,394        82,564      12.06
                        4            30,319,034        53,853       7.87
                        5            83,112,376       147,624      21.56
                        6            30,970,221        55,009       8.03
                        7            51,203,775        90,948      13.28
                      Total         385,473,824       684,678

Excess Manual Flat Mail

Plants operating at below-median FHP productivity levels also generally worked an
excessive amount of flat mail manually. The Postal Service’s manual sort target is no
more than 6 percent of the total flat volume. However, in FY 2010, plants with less than
median FHP productivity sorted an excess of 177 million flats manually. The largest
percentage (22.38) of excess manual flats was at Group 1 plants. The Postal Service
could save 516,673 workhours by using automation to sort flat mail instead of manual
sortation. See Table 17.

                                 Table 17. Excess Manual Flats

                                   Excess Flats
                                     Worked
                                   More than 6
                                                     Group      Percentage
                                    Percent of
                      Plant                         Workhour     of Excess
                                    Total Flat
                      Group                         Savings         Flats
                                     Volume
                        1           39,777,600        115,633     22.38%
                        2           39,516,209        114,873      22.23
                        3           26,104,795         75,886      14.69
                        4           33,767,852         98,162      19.00
                        5           20,726,977         60,253      11.66
                        6           9,182,812          26,694       5.17
                        7           8,659,147          25,172       4.87
                      Total        177,735,392        516,673



                                               19
Assessment of Overall Plant Efficiency 2011                                NO-MA-11-004



Allied Operations – LDC 17

Plants with below-median FHP productivity levels used a greater percentage of
workhours in allied operations (LDC 17) than plants with above-median FHP
productivity levels. As an example, Group 1 plants with above-median FHP productivity
levels used 36 percent of workhours in LDC 17. By standardizing the percentage of
workhours used in allied operations across the network, compared with total mail
processing workhours used, Group 1 plants could reduce workhours by more than 1.5
million. Further, by standardizing the percentage of workhours used in LDC 17 in all
plant groups, the Postal Service could save more than 3.8 million workhours. See
Table 18.

                                    Table 18. LDC 17 FY 2010

                                          Above-Median
                                         Average LDC 17
                                                                Group
                                        Percentage to Total
                     Plant                                     Workhour
                                         Mail Processing
                     Group                                     Savings
                                            Workhours
                        1                       36             1,573,575
                        2                       33              948,833
                        3                       36              498,129
                        4                       35              398,108
                        5                       37              261,633
                        6                       38               88,519
                        7                       38               52,888
                      Total                                    3,821,685




                                                20
Assessment of Overall Plant Efficiency 2011                                                            NO-MA-11-004



                                  APPENDIX C: MONETARY IMPACT

To calculate total questioned costs, we determined median FHP productivity for each
group and found that 145 plants throughout the country operated at below-media FHP
productivity. If these plants achieved just the median productivity level for each
respective plant group, the Postal Service could realize workhour savings of 14,017,630
and avoid costs of $647,586,823 in a single year. See Table 19.


                           Table 19: Calculation of Questioned Costs17

               Recommended                                                              Cost
                  Action and                   Workhour          Workhour            Avoidance
              Employee Category                Reduction           Rate             Based on One
                   Impacted                                                              FY
                 Level 6 Clerk                 10,195,945           $45.74          $466,362,536
              Level 5 Mailhandler               3,821,685           $47.42           181,224,287
                     Total                     14,017,630                           $647,586,823


We determined the workhours used by clerks and mailhandlers in each group and
multiplied that number by the appropriate workhour rate. For example, if Group 1 plants
operating below the median increased their productivity to the average of the
above-median plants, the Postal Service could save 5,988,398 workhours, representing
an economic impact of $276,552,950, as shown in Table 20.

                       Table 20: Associated Economic Impact by Group

                                           Recommended                         Associated
               Plant Grouping
                                          Workhour Savings                  Economic Impact
                        1                     5,988,398                       $276,552,950
                        2                     2,119,165                        98,524,659
                        3                     2,045,341                        94,390,754
                        4                     2,184,665                       100,595,413
                        5                      929,619                         42,960,322
                        6                      468,732                         21,588,529
                        7                      281,708                         12,974,196
                      Total                  14,017,630                       $647,586,823




17
  Questioned costs are unnecessary, unreasonable, unsupported or an alleged violation of law or regulation,
contract, etcetera. They may be recoverable or unrecoverable and are usually the result of a historical event.

                                                          21
Assessment of Overall Plant Efficiency 2011                 NO-MA-11-004



                        APPENDIX D: MANAGEMENT’S COMMENTS




                                              22
Assessment of Overall Plant Efficiency 2011        NO-MA-11-004




                                              23
Assessment of Overall Plant Efficiency 2011        NO-MA-11-004




                                              24
Assessment of Overall Plant Efficiency 2011        NO-MA-11-004




                                              25
